No. 19-357
INTHE

CITY OF CHICAGO,
V.

Petitioner,

ROBBIN L. FULTON, JASON S. HOWARD,
GEORGE PEAKE, AND TIMOTHY SHANNON,

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

s re uired by Supreme Court Rule 33.l(h), I, Craig Goldblatt, a member of he
bar of his ourt, certify that the accompanying Brief for Petitioner contains 12, 64
words, excl ding the parts of the document that are exempted by Supreme Court R le
33.l(d)
xec ted on February 3, 2020.

CRAIG GOLDBLATT
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania A venue NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

